   Office of Audits
   Office of Inspector General
   U.S. General Services Administration




Recovery Act Report -- Mariposa Land Port of Entry
Modernization Project
Construction Management Services for Phase 1
Construction
Audit of PBS’s Major Construction and
Modernization Projects Funded by the American
Recovery And Reinvestment Act of 2009
Report Number A090172/P/R/12005
March 30, 2012
                 Office of Audits
                 Office of Inspector General
                 U.S. General Services Administration



 DATE:            March 30, 2012
 TO:              Jeff Neely
                  Regional Commissioner
                  Public Buildings Service, Pacific Rim Region (9P)

 FROM:            Nicholas V. Painter
                  Audit Manager
                  GSA Office of Inspector General
                  Southeast Sunbelt Region, Field Audit Office (JA-4)
 SUBJECT:         Recovery Act Report – Mariposa Land Port of Entry Modernization
                  Project
                  Construction Management Services for Phase 1 Construction
                  Audit of PBS’s Major Construction and Modernization Projects
                  Funded by the American Recovery and Reinvestment Act of 2009
                  Report Number A090172/P/R/12005


During our oversight of the American Recovery and Reinvestment Act (Recovery Act)
projects administered by the General Services Administration (GSA), we identified a
number of issues related to the Mariposa Land Port of Entry (Mariposa) modernization
project in the Pacific Rim Region that warrant your attention. First, the Public Buildings
Service (PBS) violated competition requirements by exercising an unpriced option for
Construction Management (CM) services. Second, the CM contractor did not provide
GSA with evidence of competition for subcontracted services as required by the
contract. Last, PBS did not modify the CM contract to incorporate required Recovery
Act clauses.

PBS Exercised an Unpriced Option in Violation of Competition Requirements

PBS awarded contract number GS-09P-08-KTC-0005 to Vanir Construction
Management, Inc. (Vanir) for CM services related to Mariposa on September 18, 2008,
prior to passage of the Recovery Act. The initial award was for design phase services
and included options for procurement, construction, and close-out phase services. The
design phase services were priced at $1,242,662; the options were not priced and, as




                                        1
such, constitute sole source procurements 1 because only with the winning CM
contractor could be awarded the options as they were exercised. This practice violates
the competition requirements of both the Federal Acquisition Regulation (FAR) and
Competition in Contracting Act. While agencies may use noncompetitive procedures in
certain situations, these conditions were not met for this project.

Further, FAR Subpart 17.207(f) requires that the Government evaluate option pricing as
part of the initial contract competition. In this instance, the contracting officer did not
consider option pricing in making the initial award. Instead, PBS exercised all these
options at a total cost of $1,767,876, 2 with prices based upon labor rates in the base
contract and a comparison of Vanir’s proposals to the Government’s estimate.

CM Contractor Did Not Provide Evidence of Competition for Testing and
Inspection Services

The base CM contract contained a provision to award subcontracts for testing and
inspection services to an independent third party on a reimbursable basis. The contract
required that the CM contractor provide the Government with at least three proposals
from testing firms. However, we found no evidence that Vanir obtained more than one
bid. Therefore, although GSA negotiated the price for the testing and inspection
services with Vanir, the Government did not have the information it needed to assess
the reasonableness of the proposed subcontract pricing. Despite this, GSA issued five
contract modifications, totaling $740,787, 3 for these services.

PBS did not incorporate required Recovery Act contract clauses

The original Mariposa CM contract pre-dated the Recovery Act and was funded through
the Federal Buildings Fund; however, the modifications for construction and close-out
phase services were funded by the Recovery Act. Accordingly, PBS should have
modified the contract to incorporate required Recovery Act contract clauses. PBS did
not incorporate these clauses.




1
  FAR 2.101 defines a sole source acquisition as “a contract for the purchase of supplies or services that
is entered into or proposed to be entered into by an agency after soliciting and negotiating with only one
source.”
2
   This amount represents the total of (a) The procurement phase option that was exercised via
modification PS04 for $27,183 (Recovery Act funding was not used for this modification); (b) Phase 1
construction services option exercised via modification PS07 for $1,445,845; and (c) Close-out services
option exercised via modification PS12 for $294,848. (This modification included the closeout services
and a time extension for Phase 1 CM services awarded at a lump sum.)
3
  Includes modifications PC05, signed November 10, 2009, for $90,000; PC08, signed February 18, 2010,
for $70,000; PS09 signed March 26, 2010, for $433,513; PS13 signed October 1, 2010, for $85,413; and
PS15 dated October 19, 2010, for $61,861.


                                                2
GSA Acquisition Letter V-09-01 identifies several clauses that must be incorporated 4
into contracts receiving Recovery Act funds. In this case, the following required clauses
were not included in the contract:

          •   FAR Subpart 52.215-2 Audits and Records – Negotiation
          •   FAR Subpart 52.204-11 Recovery Act Reporting Requirements
          •   General Services Acquisition Manual (GSAM) Clause 552.232-70 Invoice
              Requirements 5
          •   FAR Subpart 52.203-15 Whistleblower Protections under the Recovery Act

Failure to incorporate these clauses could jeopardize the transparency and integrity
desired for Recovery Act projects. Therefore, PBS should modify the Mariposa CM
contract to incorporate these required clauses.

Recommendations

We recommend that the Regional Commissioner of the Public Buildings Service:

    1) Perform a review of the Mariposa construction and close-out phase CM costs to
       ensure they are fair and reasonable based on information that is current,
       accurate, and complete;

    2) Ensure contract requirements are followed when evaluating cost reimbursable
       contract modifications for testing and inspection services; and

    3) Incorporate required Recovery Act clauses into the Mariposa CM contract.

Management Comments

In its response to the draft report, PBS concurred with our findings and accepted the
report recommendations. PBS’s response is included in its entirety as Attachment A to
this report.




4
 Contractors refusing to incorporate these clauses will not be eligible for receipt of Recovery Act funds.
5
 PBS Acquisition Implementation Guidance for the Recovery Act (Attachment B) initially cited the GSAM
Clause 552.232-70 requirement. However, since that time, the GSAM has the clause listed as
“Reserved.”


                                                3
We appreciate the support that has been provided throughout this review. If you have
any questions about this report, please contact me at (404) 331-5520.

Sincerely,



Nicholas V. Painter
Audit Manager (JA-4)




                                      4
Appendix A – Management Comments
                                   Report Number A090172/P/R/12005




                        A-1
A-2
Appendix B – Objective, Scope, and Methodology
                                                         Report Number A090172/P/R/12005

Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provided the
General Services Administration (GSA) with $5.55 billion for the Federal Buildings Fund.
In accordance with the Recovery Act, the GSA Public Buildings Service (PBS) is using
the funds to convert federal buildings into High-Performance Green Buildings as well as
to construct federal buildings, courthouses, and land ports of entry. The Recovery Act
mandated that $5 billion of the funds must be obligated by September 30, 2010, and
that the remaining funds be obligated by September 30, 2011. The GSA Office of
Inspector General (OIG) is conducting oversight of the projects funded by the Recovery
Act.

The Mariposa Modernization Project is a project to expand the land port of entry in
Nogales, Arizona, in order to accommodate increasing traffic volumes, correct safety
and security deficiencies, and provide adequate conditions for the tenant agencies to
conduct their inspection mission as mandated by Congress. The pre-design and design
phase services began in October 2008. The project received Recovery Act funding in
November 2009, with the exercise of Modification PS07 to provide construction
management services for Phase 1 of construction. GSA allocated $173,712,000 of
Recovery Act funds to this project.

Objective

The objective of the OIG’s Recovery Act oversight is to determine if PBS is planning,
awarding, and administering contracts for major construction and modernization
projects in accordance with prescribed criteria and Recovery Act mandates. The work
for this report was performed while evaluating the award for construction management
services for Phase 1 of the Mariposa Modernization Project.

Scope and Methodology

To accomplish the objective, we conducted fieldwork in the Pacific Rim Region,
reviewed the contract file and other pertinent project documents, and reviewed
applicable guidance and regulations. The work for this report was performed between
March 2011 and May 2011.

Except as noted below, we conducted this performance audit in accordance with
generally accepted government auditing standards except as noted below. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives.




                                          B-1
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. The planning for this audit is based on the
audit plan for oversight of the Recovery Act projects as well as audit guidance being
applied to all Recovery Act projects. A separate audit guide was not prepared for this
project.

Internal Controls

As this work was performed under the continuing oversight of all GSA Recovery Act
projects, management controls have not been fully assessed. Only those management
controls discussed in the report have been assessed.




                                         B-2
Appendix C – Report Distribution
                                                          Report Number A090172/P/R/12005



Regional Commissioner, PBS (P)

Regional Recovery Executive (9P2)

Regional Administrator (9A)

Regional Counsel (9L)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison (PFF)

Assistant IG for Auditing (JA)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Deputy Assistant IG for Investigations (JID)

Director, Office of Internal Operations (JI-I)

Investigator, Office of Internal Operations (JI-I)




                                             C-1
